HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Substance Abuse and Mental Health Services Administrations Award
Process for a Contract With Westover Consultants, Inc.," (A-03-06-00537)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Substance Abuse and Mental
Health Services Administrations Award Process for a Contract With Westover
Consultants, Inc.," (A-03-06-00537)
May 30, 2007
Complete
Text of Report is available in PDF format (85 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by
the Substance Abuse and Mental Health Services Administration (SAMHSA) and other components of the Department of Health and Human Services (HHS)
in response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition
Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR)
provide, among other things, that HHS agencies award each contract to a
responsible party and document compliance with requirements for full and open
competition and the determination that the price was fair and reasonable.
As part of HHSs hurricane relief operations, SAMHSA
awarded a contract to Westover Consultants, Inc. (Westover).  The contract
obligated Westover to provide behavioral health services to hurricane victims.
Our objective was to determine whether SAMHSA complied with FAR and HHSAR
requirements during the award process involving Westover.  SAMHSA complied with
the requirements.